1a
APPENDIX A
COURT OF APPEALS OF NEW YORK
The People of the State
of New York,
Respondent,
v.
Carlos Tapia,
Appellant.
No. 19
Argued February 14, 2019
Decided April 2, 2019
Orrick, Herrington & Sutcliffe LLP, New York City
(Daniel A. Rubens of counsel), and Christina A.
Swarns, Office of the Appellate Defender, New York
City (Eunice C. Lee of counsel), for appellant.
Darcel D. Clark, District Attorney, Bronx (James J.
Wen, Nancy D. Killian, and Matthew B. White of
counsel), for respondent.
OPINION OF THE COURT
Chief Judge DiFiore.
The issue presented in this appeal is whether a
portion of a testifying witness’s prior grand jury testimony was properly admitted as a past recollection
recorded to supplement his trial testimony. We hold
that the trial court did not abuse its discretion in ad-

2a
mitting the grand jury testimony as a past recollection recorded as there was a proper foundation for receipt of the evidence. We further hold that, since the
declarant of that out-of-court statement was a live
witness at trial, defendant’s Sixth Amendment right
to confrontation was not violated.
I.
At trial, Sergeant Charlie Bello1 testified that, on
November 2, 2008, he was driving Lieutenant James
Cosgrove back to the police precinct at about 3:30 a.m.
when he saw defendant “body slam” the victim in the
street outside a bar and drag him between two parked
cars. The officers exited their vehicle and, while Cosgrove pulled defendant off the victim, Bello stopped
another man who was running toward the altercation.
Bello testified that, after Cosgrove separated the victim from defendant, he noticed the victim was “bleeding profusely from his face and neck.” Defendant and
the other man were arrested.2 Bello observed a shattered beer bottle on the ground where the victim had
been assaulted, but did not collect the pieces of glass
as evidence.
The victim sustained multiple injuries consistent
with being cut by a dangerous instrument. He testified at trial that he was attacked from behind—

Bello was a police officer at the time of the offense but had been
promoted to the rank of sergeant at the time of trial.

1

The second individual was not indicted in connection with the
assault.

2

3a
punched and kicked—and only realized he was bleeding just before the police intervened. The victim identified defendant as one of his assailants. The physician who treated the victim at the emergency room
testified that the five lacerations to the victim’s face
and neck were “consistent with being struck with a
sharp cutting instrument,” such as a piece of glass.
The physician explained that the victim’s neck lacerations were “potentially life threatening” because of
their proximity to the carotid artery and the vena
cava.
During the People’s case, defense counsel timely
notified the court and the People that she would be
seeking a missing witness charge if Lieutenant Cosgrove was not called as a witness. In response, the
People produced Cosgrove, who had retired from the
police department. Because Cosgrove could not independently recall the incident, the People, outside the
ken of the jury, sought to have his prior grand jury
testimony admitted as a past recollection recorded.
Defense counsel objected, asserting that Cosgrove
could not be cross-examined due to his claimed lack of
memory and that admitting the grand jury testimony
would therefore violate defendant’s Sixth Amendment right to confrontation. Counsel also contended
that the grand jury testimony was inadmissible under
CPL 670.10, which governs the use of prior testimony
of a “witness … unable to attend” trial (CPL 670.10
[1]). The People indicated that, although the witness
was available, if the missing witness charge was denied, Cosgrove would not take the stand. Defense
counsel declined to withdraw her request for a miss-

4a
ing witness charge, inconsistently asserting that Cosgrove was available for purposes of the latter charge
but, due to his memory loss, was unavailable for confrontation purposes. The court found that the witness
was available for confrontation as “[h]e is literally
subject to cross-examination by being on the witness
stand under oath and passed to [the defendant] as a
witness for cross[-]examination.” The trial court held
that, if the People established the appropriate evidentiary foundation, the prior grand jury testimony
would be admissible as a past recollection recorded,
because Cosgrove was in attendance and subject to
cross-examination.
The People called Cosgrove to the stand, who testified that on November 2, 2008, he had been working
an 11:00 p.m. to 7:45 a.m. shift, in uniform, with his
partner, Officer Bello. Based on his review of police
paperwork, Cosgrove was also able to testify that he
assisted in arresting two individuals at the scene, but
could not independently recall the circumstances
leading to defendant’s arrest. The People then sought
to introduce Cosgrove’s grand jury testimony as a past
recollection recorded. Cosgrove testified that he appeared before the grand jury just days after the offense, that the event was fresh in his mind at that
time, that he testified truthfully and accurately before
the grand jury and that his review of the stenographic
transcript of his prior testimony did not refresh his
present recollection of the events. Finding the appropriate evidentiary foundation established, the court
allowed a portion of Cosgrove’s testimony to be read
into the record.

5a
Cosgrove’s grand jury testimony, which was consistent with Bello’s trial testimony, was brief and not
particularly detailed. The testimony added the fact
that Cosgrove saw defendant kick the victim in the
head. The court immediately gave the jury the limiting instruction that “a memorandum of a past recollection is not of itself independent evidence of the
facts contained therein. It is auxiliary to the testimony of the witness.”
On cross-examination, defense counsel questioned Cosgrove about several routine matters including his partnership with Officer Bello and the circumstances surrounding his grand jury testimony. Cosgrove testified that he had been to the area of the assault, which was located close to the police precinct,
on various occasions “to intervene in bar fights.” Cosgrove readily admitted that he did not recall the details of those particular altercations, explaining that
he “did midnights for most of [his] career and a fight
outside of a bar [did not] really stick out in [his] mind
[because he] responded to a lot of them.” Defense
counsel focused on the witness’s lack of present recollection but also elicited that Cosgrove’s grand jury testimony that he had been a passenger in a “parked police department vehicle” was probably supposed to
read “marked” police vehicle. In addition, Cosgrove
admitted that he did not review a copy of the grand
jury minutes other than in preparation for trial and
that, based on his lack of independent recollection, he
could not swear that the official court reporter’s transcription of his testimony—although certified—was
accurate.

6a
The following day, after the close of evidence, defendant moved to strike Cosgrove’s grand jury testimony, asserting that the officer’s inability to independently verify the accuracy of the stenographer’s
transcription removed the foundation for its admissibility as a past recollection recorded. In response to
the People’s argument that the motion was untimely,
the court initially observed that it could still give a
curative instruction but, ultimately held that defendant’s argument was “untimely and thereby is waived.”
The court went on to reject the argument on the merits.
Three counts of the indictment were submitted in
the alternative to the jury under a theory of acting in
concert—assault in the first degree, attempted assault in the first degree and assault in the second degree. In its final charge, the court expounded upon
how the jury should consider Cosgrove’s grand jury
testimony as a past recollection recorded. In addition
to a second instruction that the evidence of past recollection recorded was auxiliary to the witness’s trial
testimony and not independent evidence of the facts,
the jury was further instructed that
“you may consider the witness had knowledge
at the time the testimony was taken of the
events he testified to and whether he saw the
reported testimony at or near the time [the
testimony] was taken and recognized it at the
time as containing a true statement of facts
within his own knowledge.
“You may consider the witness’s testimony on
this issue in deciding what weight to give the

7a
statements contained in the former testimony. You are at liberty to accept as much as
you think accurate and disregard the rest or
accept or disregard it in its entirety.”
The jury acquitted defendant of assault in the
first degree, but convicted him of attempted assault
in the first degree.
The Appellate Division affirmed, holding that it
was a proper exercise of discretion for the trial court
to admit Lieutenant Cosgrove’s grand jury testimony
as a past recollection recorded (151 AD3d 437, 439
[1st Dept 2017]). The Court held that the People laid
a proper foundation for the admission of the testimony and that there was no violation of the Confrontation Clause because Cosgrove testified at trial and
was subject to cross-examination. The Court also held
that the evidence was legally sufficient to support the
conviction. Two Justices dissented in part and would
have reduced defendant’s conviction to attempted second-degree assault, on the ground that the evidence
was not legally sufficient because it did not establish
beyond a reasonable doubt that defendant, alone or
acting in concert, cut the victim with a dangerous instrument. One of the dissenting Justices granted defendant leave to appeal (2017 NY Slip Op 87014[U]
[1st Dept 2017]) and we now affirm.3

This Court previously denied the People’s motion to dismiss the
appeal based on defendant’s deportation (32 NY3d 1017 [2018]).

3

8a
II.
At trial, when a witness testifies in the presence
of defendant and before the trier of fact, the evidentiary doctrine of past recollection recorded allows “a
memorandum made of a fact known or an event observed in the past of which the witness lacks sufficient
present recollection [to] be received in evidence as a
supplement to the witness’s oral testimony” (People v
Taylor, 80 NY2d 1, 8 [1992]). The foundational requirements for the admissibility of a past recollection
recorded are: 1) the witness must have observed the
matter recorded; 2) the recollection must have been
fairly fresh at the time when it was recorded; 3) the
witness must currently be able to testify that the record is a correct representation of his or her knowledge
and recollection at the time it was made; and 4) the
witness must lack sufficient present recollection of
the information recorded (see 80 NY2d at 8).
“When such a memorandum is admitted, it is
not independent evidence of the facts contained therein, but is supplementary to the
testimony of the witness. The witness’ testimony and the writing’s contents are to be
taken together and treated in combination as
if the witness had testified to the contents of
the writing based on present knowledge” (80
NY2d at 9).
The admissibility of such evidence is committed to
the sound discretion of the trial court in determining
whether the appropriate foundational requirements
have been met (see 80 NY2d at 9).

9a
Here, the court did not abuse its discretion in finding that the foundational requirements were met and
that Cosgrove’s grand jury testimony was admissible
as a past recollection recorded. On direct examination, Cosgrove stated that he had previously testified
truthfully and accurately before the grand jury to an
event he had observed when that event was still fresh
in his mind, and that reading the official minutes of
the prior testimony did not refresh his present recollection. The correct representation of the record was
provided by the court stenographer’s certification of
the grand jury testimony. Defendant’s argument that
there was an improper foundation is based on an alleged typographical error in the minutes and Cosgrove’s testimony that he did not review the transcript of his grand jury testimony near the time it was
recorded to verify its accuracy. This argument is without merit. Determinatively, the transcript of the
grand jury minutes was certified by the court reporter
as a true and accurate record of the testimony (see 80
NY2d at 10-11). The trial court reasonably concluded
that the officer’s representation that his testimony
was truthful and accurate when made, together with
the official court stenographer’s certification, were
sufficient—particularly here, where the discrepancy
identified was a trivial typographical error that defendant fully explored on cross-examination (see generally People v Bethune, 29 NY3d 539, 543 [2017]).
III.
Notwithstanding the core fact that Cosgrove was
a testifying witness at the trial and thus not an unavailable witness, defendant and the dissent maintain
that the use of Cosgrove’s grand jury testimony as a

10a
past recollection recorded violated CPL 670.10 and
the Confrontation Clause. These arguments disregard the plain text of CPL 670.10—particularly the
phrase “unable to attend”—as well as the significance
of defendant’s cross-examination of a live, testifying
witness before the trier of fact, and are without merit.
CPL 670.10 sets forth three specific types of former testimony to be admitted into evidence when the
declarant is subsequently proven “unable to attend”
trial for certain reasons. The admissible categories of
prior testimony adhere to the constitutional right to
confrontation by providing the defendant with the opportunity to cross-examine the declarant: testimony
that was given at a trial on the accusatory instrument, at a preliminary hearing on the felony complaint, or at a conditional examination under CPL article 660 (see CPL 670.10 [1]). The declarant is unavailable at trial within the meaning of the statute
when “the witness is unable to attend … by reason of
death, illness or incapacity, or cannot with due diligence be found, or is outside the state or in federal
custody and cannot with due diligence be brought before the court” (CPL 670.10 [1] [emphasis added]).
CPL 670.20 (1) sets forth the procedure for moving the
prior testimony of an absent declarant into evidence
and requires the trial court to “conduct a hearing to
determine whether personal attendance of the witness is” “precluded by some factor specified in [CPL
670.10 (1)].” As we have held, CPL 670.10 “reflecting
the spirit of the underlying constitutional prescriptions, demands a showing that the witness ‘cannot
without due diligence be found’” (People v Arroyo, 54
NY2d 567, 571 [1982]). The unavailability of the witness under 670.10 must “be established to satisfy the

11a
court that the prosecutor’s failure to produce [the witness] was not due to … a strategic preference for presenting [the] testimony in the more sheltered form
of … minutes rather than in the confrontational setting of a personal appearance on the stand” (54 NY2d
at 571).
The statute’s “three carefully worded and enumerated exceptions” to the use of prior testimony of
an unavailable declarant are essentially exclusive
(People v Ayala, 75 NY2d 422, 429 [1990] [internal
quotation marks and citation omitted]), but we have
recognized certain “exceptions” predicated on either
the forfeiture or inapplicability of the defendant’s
right to confrontation of the declarant. In the case of
a defendant’s forfeiture of the right to confrontation,
a witness’s grand jury testimony may be admissible
“as direct evidence where the witness is unavailable
to testify at trial and the proof establishes that the
witness’s unavailability was procured by misconduct
on the part of the defendant” (People v Geraci, 85
NY2d 359, 366 [1995]). In the case where the right to
confrontation is not a factor because the defendant is
the proponent of the evidence, a defendant’s due process right to present witnesses in his own defense required that he be permitted to use grand jury testimony from an unavailable witness (see People v Robinson, 89 NY2d 648, 654 [1997]).
In the absence of defendant’s forfeiture of the
right of confrontation, there is no real dispute that
CPL 670.10 does not allow the People’s use of grand
jury testimony of an unavailable witness, as defined
therein, for the simple reason that there was no

12a
cross-examination in the prior proceeding. In this regard, defendant’s and the dissent’s reliance on People
v Green (78 NY2d 1029 [1991]) for the proposition that
CPL 670.10 is essentially a categorical exclusion of
grand jury testimony of a live witness at trial is mistaken. In Green, we held that it was error to allow the
People to admit a nontestifying witness’s prior grand
jury testimony at trial as evidence-in-chief because
that testimony “did not fall within the classes of prior
testimony rendered admissible in criminal proceedings by CPL 670.10” (78 NY2d at 1030).
In that murder case, after jury selection had begun, the prosecutor informed the court that the
11-year-old witness “was indicating an unwillingness
to testify and that his critical testimony would not be
forthcoming at the trial” (see appellant’s appendix at
A11 in People v Green, 78 NY2d 1029 [1991]). After
interviewing the child in the robing room and confirming that the child professed to have no recollection of the incident or of testifying at the grand jury,
the court issued a written decision, ruling that the
child’s grand jury testimony would nonetheless be admissible at trial. The People, who were unable to
demonstrate that the defendant had played any part
in causing the witness’s reticence, opted not to proceed to a Sirois hearing (see Matter of Holtzman v Hellenbrand, 92 AD2d 405 [2d Dept 1983]; People v
Smart, 23 NY3d 213 [2014]).4 During the trial, the
Review of the briefs and appellate record filed with this Court
on the appeal in Green demonstrates that the People sought to
introduce the grand jury testimony by arguing that, despite the
lack of proof that Green had induced the witness to refuse to testify, it would not be “too far of a stretch of the imagination to
blame the defendant[ ]” for the witness’s refusal to testify, based,

4

13a
witness was again examined in the robing room—not
before the trier of fact—and reiterated that he had no
recollection of the incident, of ever having testified before the grand jury, or even of his prior robing room
conversation with the court. The child was not sworn
and refused to respond to the court’s attempt to establish his testimonial capacity (see CPL 60.20). The
court adhered to its prior decision, allowing the grand
jury testimony into evidence as an exception to the
hearsay rule. Defense counsel was then permitted to
in part, on the “climate of fear” in the neighborhood (see appellant’s appendix at A53 in People v Green, 78 NY2d 1029 [1991]).
This argument in Green, which predates Geraci and its progeny,
fails to measure up to the standard of proof required before a
defendant is deemed to forfeit his right to confront a witness that
he or she rendered unavailable. The trial court in Green ultimately determined that the nontestifying witness’s grand jury
testimony could be admitted, not under any then-existing statute or hearsay exception, but under a provision of the Proposed
Code of Evidence which would have authorized a residual exception to the hearsay rule for evidence containing substantial guarantees of trustworthiness and significant probative value (see id.
at A80-A84). The defendant’s adamant position was that the
child witness, proclaiming no recall of any facts relating to the
crime or his own testimony before the grand jury, could not be
presented before the jury without prejudice to the defendant’s
case. Nonetheless, the court deemed the defendant’s ability to
compel the witness to testify for cross-examination purposes
somehow sufficient to excuse the hearsay nature of the testimony while protecting the defendant’s right to confrontation (see
id. at A14, A80). Any suggestion that the defendant’s right to
confrontation is satisfied by placing the onus on defendant to call
to the stand an available witness after the People elected not to
call that witness and instead used the nontestifying declarant’s
hearsay in their case-in-chief is wholly without merit. Needless
to say, based on all of the above factors, Green is completely inapposite to the present case.

14a
inquire of the witness as to whether he recalled speaking with defense investigators, which the child denied. The witness was never called to the stand by either party, even to explain the extent of his lack of
recollection, despite the witness’s physical availability to testify before the fact-finder.5 Nonetheless, the
People were erroneously permitted to introduce the
nontestifying witness’s prior grand jury testimony as
evidence-in-chief, despite the failure to lay any foundation that the out-of-court statement was admissible
either under CPL 670.10 or as a past recollection recorded.
In stark contrast, here Cosgrove took the stand
before the trier of fact, without objection by defendant, as a People’s witness and was cross-examined by
defendant. Those factors are not “immaterial” and indeed render the very purpose of CPL 670.10 inapplicable to this case. To be sure, the People did not seek

The dissent’s extraordinary assertion that the unsworn child
witness in Green “attended and testified at trial” (dissenting op
at 280) is completely at odds with the positions of the parties in
that case as well as the trial court’s own jury instructions (“[the
child witness] as you obviously are aware was not here. Did not
testify from the witness stand”) see appellant’s appendix at A106
in People v Green, 78 NY2d 1029 [1991]). There is no support for
the contention that the inquiry of the child in the robing room is
the functional equivalent of testimony given in open court before
the jury (see CPL 65.20) and indeed, the inquiry simply elicited
additional hearsay statements outside the ambit of CPL 670.10.
Moreover, the Green defendant’s use of the nontestifying declarant’s prior statements, including his denials in the robing room,
to impeach the prior grand jury testimony does not transform
the declarant into a testifying witness.

5

15a
to introduce the testifying witness’s grand jury testimony under that statute. Rather, as noted above and
unlike the circumstances presented in Green, the People laid an adequate foundation for admission of the
testimony as a past recollection recorded via Cosgrove’s live testimony that he appeared before the
grand jury just days after the offense, that the event
was fresh in his mind at that time, that he testified
truthfully and accurately before the grand jury, and
that his review of his grand jury testimony did not refresh his present recollection.6
Equally unavailing is defendant’s Sixth Amendment argument that, even though Cosgrove testified
at trial, his memory failure rendered him unavailable
for the purpose of cross-examination within the meaning of the Sixth Amendment. Significantly, the right
to confrontation guarantees not only the right to
The dissent’s dire warning that we are permitting “the wholesale introduction of prior testimony not subjected to cross-examination” (dissenting op at 281) disregards both the foundational
requirements of a past recollection recorded and its limited evidentiary value. Again, as we held in Taylor, the past recollection
recorded is not independent evidence of the facts, but is merely
supplementary to the witness’s trial testimony. The dissent further ignores that the jury is the arbiter of the testifying witness’s
credibility and will take memory loss into account in its calculus
of the weight that should be accorded to that witness’s testimony. Combining these factors, there is no incentive whatsoever
for a witness who has an independent recollection of the facts to
feign memory loss in favor of such prior testimony. Finally, the
dissent overlooks various other evidentiary rules imposing limitations on the use of prior testimony of available witnesses (see
e.g. People v McClean, 69 NY2d 426 [1987] [prior consistent
statements generally inadmissible unless proffered to rebut a
claim of recent fabrication]).

6

16a
cross-examine all witnesses, but also the ability to literally confront the witness who is providing testimony against the accused in a face-to-face encounter
before the trier of fact (see Coy v Iowa, 487 US 1012,
1016-1020 [1988]; California v Green, 399 US 149,
157-158 [1970]). The Confrontation Clause is satisfied
when these requirements are fulfilled—even if the
witness’s memory is faulty. The United States Supreme Court has directly addressed the situation
where a witness was unable to explain the basis for a
prior out-of-court identification due to memory loss
(see United States v Owens, 484 US 554 [1988]; see
also CPL 60.25). In Owens, the Court held that “[t]he
Confrontation Clause guarantees only an opportunity
for effective cross-examination, not cross-examination
that is effective in whatever way, and to whatever extent, the defense might wish” (484 US at 559 [internal
quotation marks and citations omitted]).7 To that end,
“[i]t is sufficient that the defendant has the opportunity to bring out such matters as the witness’ bias,
his lack of care and attentiveness, his poor eyesight,
and even (what is often a prime objective of cross-examination), … the very fact that he has a bad
memory” (484 US at 559; see also Delaware v Fensterer, 474 US 15, 19 [1985] [“an expert witness who
cannot recall the basis for his opinion invites the jury
to find that his opinion is as unreliable as his
memory”]). “[T]he Clause’s ultimate goal is to ensure
Prior grand jury testimony has been held admissible as a past
recollection recorded under Federal Rules of Evidence rule 803
(5) where the witness is present at trial and the defendant has
the opportunity for cross-examination (see Isler v United States,
824 A2d 957, 961 [DC 2003]).
7

17a
reliability of evidence, but it is a procedural rather
than a substantive guarantee. It commands, not that
evidence be reliable, but that reliability be assessed
in a particular manner: by testing in the crucible of
cross-examination” (Crawford v Washington, (541 US
36, 61 [2004]). Although Crawford changed the landscape of the analysis of what constitutes “testimonial
evidence” within the meaning of the Confrontation
Clause, the Supreme Court clearly maintained the
fundamental importance of a witness’s presence at
trial. “[W]hen the declarant appears for cross-examination at trial, the Confrontation Clause places no
constraints at all on the use of his prior testimonial
statements.… The Clause does not bar admission of a
statement so long as the declarant is present at trial
to defend or explain it” (541 US at 60 n9). Therefore,
Cosgrove’s presence at trial as a testifying witness,
where he was subjected to cross-examination before
the trier of fact who must assess the credence and
weight to be accorded to his testimony as a whole, precludes defendant’s Confrontation Clause argument.8
IV.
Finally, the evidence was legally sufficient to support the conviction. “[V]iewing the facts in a light
most favorable to the People, there is a valid line of
reasoning and permissible inferences from which a
rational jury could have found the elements of the
crime proved beyond a reasonable doubt” (People v
We note that defendant did not raise, and we therefore do not
address, whether admission of Cosgrove’s grand jury testimony
violated his right to confrontation under the New York State
Constitution.

8

18a
Danielson, 9 NY3d 342, 349 [2007] [internal quotation
marks and citations omitted]).
Accordingly, the order of the Appellate Division
should be affirmed.
**********
Wilson, J. (dissenting).
Chief Justice John Marshall presided over the
1807 trial of Aaron Burr. Prosecutors attempted to
admit the out-of-court statement of one of Burr’s alleged coconspirators, Herman Blennerhassett. The
Chief Justice ruled the out-of-court statement inadmissible because of the importance of cross examination:
“The rule of evidence which rejects mere
hearsay testimony, which excludes from trials
of a criminal or civil nature the declarations
of any other individual than of him against
whom the proceedings are instituted, has
been generally deemed all essential to the correct administration of justice. I know not why
a declaration in court should be unavailing,
unless made upon oath, if a declaration out of
court was to criminate others than him who
made it; nor why a man should have a constitutional claim to be confronted with the witnesses against him, if mere verbal declarations, made in his absence, may be evidence
against him. I know of no principle in the
preservation of which all are more concerned.

19a
I know none, by undermining which, life, liberty and property, might be more endangered.
It is therefore incumbent on courts to be
watchful of every inroad on a principle so
truly important” (United States v Burr, 25 F
Cas 187, 193 [D Va 1807, No. 14,694]).
More succinctly, testimony is generally inadmissible unless both the witness and opposing counsel
were in the room where it happened.
Here, Mr. Tapia’s conviction rested in part on the
admission of the grand jury testimony of Lieutenant
Cosgrove. That testimony was not subjected to cross
examination when taken, and by the time of trial,
Lieutenant Cosgrove testified that he remembered
nothing about the incident for which Mr. Tapia stood
trial. The admission of his grand jury testimony, under those circumstances, violated CPL 670.10 and our
decision in People v Green (78 NY2d 1029 [1991]).
I.
At around 3:30 a.m. on November 2, 2008, Sergeant Charlie Bello was driving south on Jerome Avenue in an unmarked vehicle, with Lieutenant James
Cosgrove as his passenger. The two police officers
were headed to the 44th Precinct station house to process an arrest. A block south of the precinct sat a local
bar, La Rubia. Driving past La Rubia, Sergeant Bello
saw Carlos Tapia body slam a person in front of some
parked vehicles.
The officers stopped and rushed on foot toward
the fight. Sergeant Bello testified that he saw Mr.

20a
Tapia drag the man’s body behind two cars and lost
sight of them. Lieutenant Cosgrove came upon Tapia
kicking his victim and pulled him off; Mr. Tapia was
standing over his bloodied victim, who bore a slash on
his face. Sergeant Bello saw another individual running toward the fight, whom he and Cosgrove believed
to be a second assailant. The victim said he had been
attacked by two people, but he was disoriented during
the melee and could not say who had cut him or when
it happened. Sergeant Bello canvassed the area and
saw pieces of a broken beer bottle near the spot Mr.
Tapia had been on top of his victim, but did not check
them for fingerprints or to see if there was blood on
them. He did not find any razors, knives, or other
weapons, either at the scene or in the possession of
Mr. Tapia or the other presumed assailant.
Both officers testified before the grand jury. At
trial, four years later, Lieutenant Cosgrove testified
that he no longer had any independent recollection of
this arrest, and that reviewing his grand jury testimony had not refreshed his recollection at all.
Sergeant Bello testified live and in detail about
the event. The People moved to introduce Lieutenant
Cosgrove’s grand jury testimony. Over defense counsel’s objection, the court allowed the People to read
Lieutenant Cosgrove’s grand jury testimony that related to the events in question.
II.
As regards this appeal, the Confrontation Clause
is neither the starting nor ending place. It is not the
starting place because even before its enactment, the

21a
common law forbade criminal prosecution by way of
out-of-court statements, even if they were sworn (see
generally Crawford v Washington, 541 US 36 [2004]).
It is not the ending place because the legislature’s enactment of Criminal Procedure Law § 670.10 resolves
this case as a matter of statute, without resort to the
Constitution.1
Criminal Procedure Law § 670.10 allows for three
types of prior testimony to be admissible in a criminal
prosecution: “testimony given by a witness at (a) a
trial of an accusatory instrument, or (b) a hearing
upon a felony complaint conducted pursuant to section 180.60, or (c) an examination of such witness conditionally, conducted pursuant to article six hundred
sixty” (CPL 670.10 [1]). Prior grand jury testimony is
not among those. Crucially, each of the three varieties
of prior testimony that may be admitted are types of
testimony as to which, when the testimony was originally taken, the right of cross-examination was assured (see NY Const, art I, § 6; CPL 180.60 [4], [8];
§ 660.60 [1]). The majority acknowledges that the
common feature of the allowable types of prior testimony is that the testimony was previously subjected
to cross-examination (majority op at 265).
Of course, grand jury testimony is never subjected
to cross-examination. Moreover, even as to the three
categories of prior testimony that may be admitted at
a criminal trial, the legislature insisted that such testimony could not be admitted unless “the witness is
Defendant failed to preserve for appellate review any claim
based on the Confrontation Clause of the State Constitution.

1

22a
unable to attend,” which must be proven by “evidence
demonstrating that personal attendance of such witness is precluded” (CPL 670.10 [1]; 670.20 [2]). The
legislature’s decision to exclude prior testimony unless both (1) it was subject to cross-examination when
originally taken, and (2) the witness cannot be produced at trial, could not be clearer.
Our decision in People v Green, which applied
CPL 670.10 to bar the admission of a witness’s prior
grand jury testimony, controls the disposition of this
case, and requires the conclusion that the admission
of Lieutenant Cosgrove’s grand jury testimony violated CPL 670.10, requiring reversal. Green’s holding,
unanimous on this point, is as follows:
“The grand jury testimony of an eyewitness to
the crime, which identified defendant as one
of the perpetrators, did not fall within the
classes of prior testimony rendered admissible in criminal proceedings by CPL 670.10. Inasmuch as the statute’s ‘three carefully
worded and enumerated exceptions’ are exclusive (People v Harding, 37 NY2d 130, 134;
see, People v Ayala, 75 NY2d 422, 429), the
trial court erred in allowing the witness’ prior
testimony to be admitted as evidence-in-chief
against the defendant” (78 NY2d at 1030).
The facts of Green are not stated in our memorandum
decision, but appear in the papers then before us. A
child (J.H.) witnessed a shooting and testified at
length before the grand jury that he saw Mr. Green
and another man (7up) shoot the victim and flee. In
his grand jury testimony, J.H. described the color of

23a
the gun that each man used and the direction they
fled and stated that he saw the victim bleeding on the
ground. He also testified that Mr. Green was someone
he saw every day in the neighborhood and knew well.
A year later, before a second grand jury, he testified
the same way as before. When, two years after the
shooting, trial commenced, J.H. said he had no recollection of the events. Faced with that total memory
loss and a request by the People to read J.H.’s grand
jury testimony into the record, Supreme Court, in its
order of January 31, 1989, directed as follows:
“I have concluded that the appropriate procedure is to produce the witness at trial, that if
when he is called he adheres to his earlier position, that the Grand Jury minutes of [J.H.]
be read to the jury, that thereafter [he] be
made available for cross-examination so that
the defendants’ right of confrontation and
their right to impeach his testimony is available.”
During trial, but out of the presence of the jury,
J.H. was examined first by counsel for the People and
then by counsel for Mr. Green. Thereafter, both the
examination by the People and the examination by
Mr. Green’s counsel, together with both instances of
J.H.’s grand jury testimony, were read into the record
with the jury present.
No meaningful distinction exists between Green
and this case. In Green, J.H. was physically present,
just as Lieutenant Cosgrove was present at this trial.
Indeed, the “written decision” cited by the majority
(majority op at 267) directed that “the Grand Jury

24a
Minutes of [J.H.] will be read to the jury, [and] that
after [J.H.] will be made available for cross-examination” (appellant’s appendix at A80 in People v Green,
78 NY2d 1029 [1991]). In Green, J.H. was examined
and cross-examined at trial, just as Lieutenant Cosgrove was; the only, immaterial, difference being that
in view of J.H’s young age, the Court took his testimony in camera, and had it read to the jury. Just as
here, when the witness repeatedly denied any recollection of the events he had observed, the court admitted his grand jury testimony. We held that the admission of that testimony violated CPL 670.10 and required a new trial.
To admit prior testimony, CPL 670.10 (1) requires
that a witness be “unable to attend” specifically limited to circumstances “by reason of death, illness or
incapacity, or cannot with due diligence be found, or
is outside the state or in federal custody and cannot
with due diligence be brought before the court.” Neither the witness in Green nor Lieutenant Cosgrove
was unable to attend. Both attended trial, and the testimony of both, including testimony as to their inability to recall, was presented to the jury. In Green, we
applied 670.10 and reversed. Any different decision
here relies on distinctions that do not constitute a
meaningful difference.
The majority’s several attempts to distinguish
Green are wholly unpersuasive. First, the majority repeatedly claims that Green is distinguishable because
J.H. was a “nontestifying” witness who was “never
called to the stand by either party, even to explain the
extent of his lack of recollection” (majority op at 268).
As set forth above, that is untrue. The entirety of

25a
J.H.’s in camera examination and cross-examination,
in which he testified as to his total lack of recollection
of the events two years prior, was read to the jury in
open court as part of the trial evidence, immediately
after his grand jury testimony was read into the record.
Labelling those facts “extraordinary” (majority op
at 268 n 5) does not alter them. The majority acknowledges that both the People and the defense examined
J.H. in chambers, and that the in camera examination
was read to the jury, along with J.H.’s grand jury testimony. The majority does not dispute that the in
camera examination was directed at J.H’s lack of
memory. Although the majority properly notes that
the trial court’s instructions reminded the jurors that
J.H. “was not here. Did not testify from the witness
stand,” the court continued that even so, “[y]ou may
consider that testimony the same as though [J.H.] appeared in court and testified from the witness stand”
(appellant’s appendix at A106 in People v Green, 78
NY2d 1029 [1991]). The majority, however, omits the
following. After concluding the bulk of the jury
charge, the court met with counsel to determine
whether any further instructions or exceptions were
requested by counsel. Defense counsel requested that
the court further instruct the jury that the jurors
could consider the in camera testimony of J.H. “in determining the credibility of [J.H.’s] Grand Jury testimony.” (appellant’s appendix at A127 in People v
Green, 78 NY2d 1029 [1991]). The court then instructed the jury as follows:

26a
“I did not during my instructions, I indicated
that [J.H.’s] Grand Jury testimony can be considered by you as evidence, there was a, in addition to his Grand Jury testimony, questions
that were asked of him by Mr. Dubin [defense
counsel] and they are in evidence as well and
you may consider those on the issue of [J.H.’s]
credibility” (A128; emphasis added).
The “contention that the inquiry of the child in the
robing room is the functional equivalent of testimony
given in open court before the jury” (majority op at
268 n 5) is not a contention at all. The plain fact from
the record in Green is that the trial court instructed
the jury that J.H’s in camera examination was “in evidence” just as was his grand jury testimony, with no
distinction made between them as to evidentiary
value. It was clear to the Appellate Division, too, that
“the in camera transcripts also were admitted” (People v Green, 159 AD2d 432, 433 [1st Dept 1990]). The
majority’s elaborate explanations of what should or
could have happened are, quite simply, not what happened.
Both J.H and Lieutenant Cosgrove were testifying witnesses whose contemporary testimony about
their lack of recollection was trial evidence. Thus, the
majority’s claim of a “stark contrast” between the
facts of Green and those present here is wholly unfounded. I do agree with the majority, though, that I
should not have used the word “immaterial” to describe the difference between Lieutenant Cosgrove’s
live testimony about his lack of memory and J.H.’s
like testimony read into the record (majority op at

27a
268). I should instead have said “nonexistent,” because the trial court expressly instructed the jury that
J.H.’s testimony, including the testimony taken in
camera and read into the record, was in evidence and
could be considered in evaluating J.H.’s credibility.2
Green requires reversal here.
Second, the majority asserts that the witness in
Green refused to testify at trial out of fear for his
safety, citing the People’s wholly speculative assertion in that case that “it would not be ‘too far of a
stretch of the imagination to blame the defendant[]’
for the witness’s refusal to testify, based in part, on
the ‘climate of fear’ in the neighborhood” (majority op
at 267 n 4). Courts must rely on evidence, not
stretches of the imagination, and there was no evidence that either Mr. Green or his co-defendant had
done anything to cause the witness’s inability to recall
the events. Putting that aside, the trial court granted
the defense’s request for a limiting instruction as to
the grand jury testimony and instructed the jury that
the reason the testimony was being read into the record had “nothing to do with the parties in this litiga-

The application of CPL 670.10 cannot possibly turn on whether
the cross-examination is conducted in camera, to spare a child
the trauma of testifying in open court; certainly nothing in the
statute would permit that distinction. Nor can its application
turn on whether counsel chooses to cross-examine or the extent
of that cross-examination; if that were a sound basis to distinguish Green, all defense counsel need do in the future to block
the introduction of grand jury testimony would be to decline to
cross-examine the witness or conduct a perfunctory cross-examination.

2

28a
tion. They have nothing to do with anyone being unavailable by reason of conduct of anybody.” The majority’s observation that our decision in Geraci, which detailed the requirements for allowing the introduction
of grand jury testimony when a defendant was responsible for a witness’s refusal (or claimed inability)
to testify (majority op at 267 n 4, citing People v
Geraci, 85 NY2d 359, 366 [1995]), came after Green is
irrelevant. The People had no evidence that Mr.
Green or his codefendant had anything to do with the
witness’s inability (or unwillingness) to testify, and
the trial court’s expression of its understanding of the
substantive law governing such a showing was entirely consistent with Geraci.
Third, the majority asserts that Green is distinguishable because there, the People “fail[ed] to lay
any foundation that the out-of-court statement was
admissible either under CPL 670.10 or as a past recollection recorded” (majority op at 268). That distinction, too, is without merit. As the majority acknowledges, the trial court in Green held that the grand jury
testimony was admissible under the residual exception to the hearsay rule based on its trustworthiness
and probative value. In reversing, we did not hold
that the grand jury testimony was inadmissible because the court’s analysis on the residual hearsay exception was incorrect. Rather, we held that its admission violated CPL 670.10 (see Green, 78 NY2d at
1030). The same result should apply here. Whether
Lieutenant Cosgrove’s grand jury testimony met the
requirements for admission under the hearsay exception for a past recollection recorded is irrelevant because CPL 670.10 barred its admission.

29a
Until now, we have consistently understood CPL
670.10 as standing for “a general rule [that] the
Grand Jury testimony of an unavailable witness is inadmissible as evidence-in-chief (see, People v Green,
78 NY2d 1029; People v Gonzalez, 54 NY2d 729; CPL
670.10)” (People v Geraci, 85 NY2d 359, 365 [1995]).
For example, in People v Harding (37 NY2d 130, 133
[1975]), we refused to permit the admission of prior
testimony taken in a police disciplinary proceeding,
even though that testimony was under oath, subjected to cross-examination, and the witness had died
in the interim. We explained CPL 670.10 “only permits the use of testimony previously taken in certain,
specified criminal judicial proceedings” (37 NY2d at
133). Likewise, in People v Ayala (75 NY2d 422, 429
[1990]), we held it was error to introduce an unavailable witness’s prior testimony given in court and under oath and subject to cross-examination at a Wade
hearing, because:
“[A]lthough CPL 670.10 is ‘[l]argely a codification of common-law’ principles (People v Arroyo, supra, at 569), this court has already rejected the argument that the statutory terms
and their fair import are not exclusive (People
v Harding, supra, at 133-134). As the court
has noted, the statute contains ‘three carefully worded and enumerated exceptions’ to
the general rule excluding hearsay evidence
(id., at 134), suggesting that the Legislature
intended the statute’s reach to be relatively
narrow and limited to its precise terms. Further, the general rule that ‘[in] criminal matters the courts must be more circumspect’ (id.,
at 134) counsels against a construction that

30a
would extend CPL 670.10 well beyond the
‘fair import’ of its language.” (Cf. Crawford,
541 US at 53-54 [“the common law in 1791
conditioned admissibility of an absent witness’s examination on unavailability and a
prior opportunity to cross-examine.… The numerous early state decisions applying the
same test confirm that these principles were
received as part of the common law in this
country”].)
The First Department summarized our controlling caselaw thus:
“New York has modified the common-law rule
that prior testimony is generally inadmissible
as constituting hearsay when offered for its
truth by allowing testimony given at certain
prior proceedings to be admitted at a subsequent proceeding, provided that the witness is
‘unable to attend’ the subsequent proceeding
because of ‘death, illness or incapacity, or [because the witness] cannot with due diligence
be found, or is outside the state or in federal
custody and cannot with due diligence be
brought before the court’ (CPL 670.10 [1].) In
the instant matter, even if the mother were
found to be unavailable due to ‘incapacity’
(see, e.g., People v Muccia, 139 AD2d 838, 839,
lv denied 72 NY2d 960), a rather dubious
proposition, the statutory exception to the
common-law rule would still be unavailable
since it is limited to three types of prior proceedings—previous trials, preliminary hearings conducted pursuant to CPL 180.60 and

31a
conditional examinations taken pursuant to
CPL article 660. (See, CPL 670.10 [1].) These
three classes of prior testimony rendered admissible in criminal proceedings by CPL
670.10 ‘are exclusive’. (People v Green, 78
NY2d 1029, 1030.) As the Court of Appeals
noted in People v Geraci (85 NY2d 359), in reaffirming the holding in Green, not only is
Grand Jury testimony not mentioned in CPL
670.10, but such testimony ‘is especially troubling because “although given under oath, [it]
is not subjected to the vigorous truth testing
of cross-examination”’ and it ‘is often obtained
through ... conditions which tend to impair its
reliability’, such as ‘leading questions and reduced attention to the rules of evidence.’ (People v Geraci, supra, at 368.)” (People v Concepcion, 228 AD2d 204, 205 (1st Dept 1996].)
The admission of Lieutenant Cosgrove’s grand
jury testimony fails both parts of CPL 670.10: he was
not “unable to attend” as defined in that statute, and
his grand jury testimony fell into none of the enumerated exceptions. Instead, it violated our settled decisional law, rooted in the common law, prohibiting the
introduction of grand jury testimony in the People’s
case-in-chief.
III.
In an attempt to bypass CPL 670.10 and Green,
the majority proposes to read CPL 670.10 in an unsupportable manner, claiming that when a witness is
available, any sort of prior testimony fitting within a

32a
hearsay exception may be offered into evidence (majority op at 266-267). Putting aside, for a moment,
that that claim is wholly incompatible with Green (as
explained above),3 it is also wholly incompatible with
the common-law prohibition against trial by
out-of-court testimony. The availability of a witness
does not remove the strictures of 670.10; instead, it
means that one of its requirements for the “[u]se in a
criminal proceeding of testimony given in a previous
proceeding” has not been met.
CPL 670.10 (1) provides that certain, specified
kinds of prior testimony “may, where otherwise admissible” be received into evidence at a subsequent
proceeding “when at the time of such subsequent proceeding the witness is unable to attend” for certain,
specified reasons. The majority reads this language to
mean that where the witness is able to attend, CPL
670.10 imposes no restrictions whatsoever on the use
of the witness’s prior testimony. That reading of the
statute is irreconcilable with our holding in Green, as
explained, because J.H. not only was available, but
attended and testified at trial, and yet we held that
admission of his grand jury testimony violated CPL
670.10. Under CPL 670.10, the unavailability of the
witness to testify at trial is a prerequisite to using the

Even under the majority’s interpretation that CPL 670.10 is
irrelevant if a witness is available, Green nevertheless dictates
the result here, because it holds that a witness (like J.H. in Green
or Lieutenant Cosgrove) who testified before a grand jury but
now lacks recollection from which to testify is governed by CPL
670.10. Whatever construction of CPL 670.10 one chooses, Green
is indistinguishable, and its holding controls this case.

3

33a
witness’s prior testimony as a substitute for the witness’s live testimony with respect to the events in
question.4
Inasmuch as we have held that CPL 670.10 was
‘“[l]argely a codification of common-law’ principles,”
Crawford (541 US 36) is instructive. The Supreme
Court expressly stated that hearsay exceptions, such
as the doctrine of past recollection recorded, cannot be
used to evade the common-law proscription of the use
of prior testimony that fails to satisfy both requirements of (a) unavailability of the declarant, and (b)
the right to have cross-examined the prior testimony
when given—the very conditions set out in CPL
670.10:
“there is scant evidence that [hearsay] exceptions were invoked to admit testimonial statements against the accused in a criminal case.
Most of the hearsay exceptions covered statements that by their nature were not testimonial—for example, business records or statements in furtherance of a conspiracy. We do
not infer from these that the Framers thought
exceptions would apply even to prior testimony” (541 US at 56).

The title of CPL 670.10 confirms that it applies to all circumstances in which prior testimony is sought to be introduced in a
criminal trial: “Use in a criminal proceeding of testimony given
in a previous proceeding; when authorized.” “The title of an act
is like a label; it defines the scope of the enactment and gives
notice of the purpose which its sponsors had in mind” (McKinney’s Cons Laws of NY, Book 1, Statutes § 13 , Comment).

4

34a
People v Taylor (80 NY2d 1, 6 [1992]), on which
the majority relies, presents a paradigmatic example
of the past recollection recorded exception’s proper
use: it involves the admission of an out-of-court nontestimonial statement, not prior testimony. There, we
precisely stated the exception’s sweep: “a memorandum made of a fact known or an event observed in the
past of which the witness lacks sufficient present recollection may be received in evidence as a supplement
to the witness’s oral testimony” (id. at 8). Introduction
of the slip of paper on which a percipient witness
wrote down a license plate number (or, in Taylor, use
of a detective’s note recording the license plate number when the witness relayed the plate number to the
detective) is the kind of nontestimonial out-of-court
statement that supplements a witness’s oral testimony where present recollection is lacking. Nothing
about Taylor suggests that grand jury testimony may
be read into the record as a past recollection recorded
if a witness’s memory has failed. Indeed, Supreme
Court tacitly recognized the impropriety of reading
Lieutenant Cosgrove’s grand jury testimony into the
record when it instructed the jury that the testimony
was “not of itself independent evidence of the facts
contained therein. It is auxiliary to the testimony of
the witness,” though the live testimony contained
nothing of substance. There is a certain irony in the
majority’s explanation of the past recollection recorded doctrine as requiring that such evidence be admitted “not [as] independent evidence of the facts contained therein, but [as] supplementary to the to the
testimony of the witness” (majority op at 264), when
the witness has no substantive testimony to supplement.

35a
The majority’s decision takes a large step towards
reinstating the very procedures the common law
deemed illegitimate: trial by declaration or affidavit.
In doing so, it turns our common-law and statutory
rules on their head, admitting that the grand jury testimony of a dead witness could not be offered at trial
for the truth of the matters contained therein, but
permitting the wholesale introduction of prior testimony not subjected to cross-examination if the witness is alive. For several hundred years and for good
reason, we have not let the government secure the testimony of witnesses in private examinations and introduce those at trial to convict the accused. A witness’s lack of memory at the time of trial does not render such testimony any more reliable or less threatening to the rights of the accused than the introduction of that testimony when a witness has perfect recall; indeed, it has a greater potential to undermine
the rights of the accused because of the impairment of
the scope of cross-examination. It makes no sense to
permit more hearsay when a witness is available.
The majority offers several unsatisfying explanations as to why its decision will not facilitate the
wholesale introduction of prior testimony that has not
been tested by cross-examination. First, again reciting that such testimony would be admitted “not [as]
independent evidence of the facts, but … merely supplementary to the witness’s trial testimony” (majority
op at 269 n 6) ignores two points: (a) when the witness
lacks all recall of the events, there is no testimony to
supplement; and (b) a jury cannot possibly make a distinction between admitting Lieutenant Cosgrove’s
grand jury testimony as “supplementary” versus “independent evidence of the facts.” Here, no one could

36a
make that distinction, and no one has: the lower
courts and the majority treat Lieutenant Cosgrove’s
grand jury testimony as independent evidence of the
facts to which he testified. As explained later, certain
of those facts appear nowhere else in the record and
are essential to maintaining the conviction for
first-degree assault.
Second, the majority offers that “the jury … will
take memory loss into account in its calculus of the
weight that should be accorded to that witness’s testimony” (id.). That might be meaningful in a case such
as United States v Owens (484 US 554 [1988]), where
the witness had a partial memory and his memory
was impaired to some degree by the attack he suffered. In the case of the grand jury testimony of a police officer who testifies truthfully that he no longer
has any recollection because of the passage of time,
but who was under oath and testified truthfully before the grand jury when he did recall the incident,
the jury has no basis to question the accuracy of the
testimony based on memory loss. It is hard enough to
remember details about a meeting one attended or a
movie one saw a few weeks ago; many of the cases on
our docket involve gaps between incident and trial of
several years (in this case, more than four). No one is
suggesting that the majority’s decision will cause witnesses to “feign memory loss” (majority op at 269 n 6).
Heretofore, the grand jury testimony of witnesses who
had no memory by the time of trial could not be introduced as evidence in the People’s case-in-chief. The
problem occasioned by the majority’s decision is its facilitation of convictions based on testimony that has
not been subjected to cross-examination, which is
anathema to our system of justice.

37a
Third, the majority’s example that the rule that
“prior consistent statements [of a witness are] generally inadmissible unless proffered to rebut a claim of
recent fabrication” (id.) will restrict the use of grand
jury testimony is quite odd: its consequence is that
where the witness has no affirmative testimony to offer, the grand jury testimony is admissible, but where
the witness vividly recalls the details, the grand jury
testimony will not be admitted. If we remember that
the purpose of trial is to determine the truth, we
would be much better off admitting grand jury testimony where the witness recalls the details vividly and
can be cross-examined, than admitting grand jury testimony where the witness remembers none of the details, and the substance of the testimony cannot be
cross examined.
IV.
“Errors of law of nonconstitutional magnitude
may be found harmless where ‘the proof of the defendant’s guilt, without reference to the error, is overwhelming’ and where there is no “significant probability … that the jury would have acquitted the defendant had it not been for the error” (People v Byer,
21 NY3d 887, 889 [2013] [quoting People v Crimmins,
36 NY2d 230, 241-242 (1975)]). The evidence that Mr.
Tapia was guilty of attempted assault in the second
degree was substantial, but as to assault in the first
degree, it was not. The victim had a slash on his face,
which led the People to pursue a theory involving the
use of a deadly weapon. The jury was asked to convict
on two theories, either Mr. Tapia himself assaulted
the victim with a deadly weapon, or that Mr. Tapia
acted in concert with the other attacker, who used a

38a
deadly weapon. With respect to these theories involving the use of a deadly weapon, the admission of Lieutenant Cosgrove’s testimony was not harmless error.
As to the first theory, no witness saw Mr. Tapia
with a weapon at any point during, before or after the
assault. No weapon was found at the scene. The victim testified at trial that he did not know which of his
attackers cut him or when he was cut. Although there
was broken glass on the ground in the area where
Lieutenant Cosgrove pulled Mr. Tapia away from the
victim, the police did not look for blood on the glass or
see any blood on Mr. Tapia. There are no facts from
which a jury could determine, beyond a reasonable
doubt, that Mr. Tapia used a deadly weapon to cut the
victim.
The acting-in-concert theory is a closer question,
but I conclude the evidence of defendant’s guilt was
not so overwhelming that we could conclude that the
error was harmless. “[T]o be liable under an acting in
concert theory, the accomplice and principal must
share a ‘community of purpose’ ” (People v Scott, 25
NY3d 1107, 1110 [2015], quoting People v La Belle, 18
NY2d 405, 412 [1966]). The requisite “community of
purpose” is not satisfied, where, for example, the evidence shows “a spontaneous and not concerted or
planned use of [a] weapon” (People v Monaco, 14 NY2d
43, 45 [1964]). Thus, if the People’s evidence demonstrated only that Mr. Tapia and another assaulted the
victim, but that the other assailant slashed the victim
spontaneously and unexpectedly during the attack,
that evidence would be insufficient to support Mr.
Tapia’s conviction for first-degree assault guilt under

39a
an acting-in-concert theory (see e.g. People v Akptotanor, 158 A.D.2d 694, 695 [2d Dept 1990], affd 76 NY2d
1000 [1990]). On the other hand, we have held the
“community of purpose” doctrine is satisfied where,
for example, there is “evidence of prior planning and
then active participation” (People v Brathwaite, 63
N.Y.2d 839, 842 [1984]), or the defendant was aware
that a weapon was carried to the encounter from the
outset (see People v Whatley, 69 NY2d 784, 785
[1987]), or the defendant was present when the principal approached the victim with the injury-causing
weapon (see Scott, 25 NY3d at 1110). However, the
record is bereft of evidence that would fit under one of
those precedents.
Here, the acting-in-concert claim hinges on a theory of the case for which we have no precise precedent:
because Mr. Tapia assaulted the victim after the victim had been slashed, Mr. Tapia was acting in concert
with the slasher. That evidence alone does not overwhelmingly establish that Mr. Tapia acted in concert
with the slasher. In any event, even if the evidence
were overwhelming, the difficulty here is that Lieutenant Cosgrove’s grand jury testimony provides the
only evidence that Mr. Tapia was assaulting the victim after the victim had been slashed. His grand jury
testimony also provides the sole support for the People’s claim that Mr. Tapia was in a position to see that
the victim had been slashed. Those facts are essential
to supporting the second theory for conviction provided by the People.
Two Justices of the Appellate Division believed
that, even with the inclusion of Lieutenant Cosgrove’s
testimony, the evidence could not support a conviction

40a
of first-degree assault. The jury convened for four
days and submitted 16 notes to the judge before
reaching a verdict. The factfinders in the proceedings
below clearly considered this case a close question
when Lieutenant Cosgrove’s grand jury testimony
was part of the record. Thus, because it was error to
admit that testimony, the error here cannot be said to
be harmless.
For the above reasons, I would reverse the judgment and grant defendant a new trial.
Judges Stein, Garcia and Feinman concur; Judge Wilson dissents in an opinion in which Judges Rivera and
Fahey concur.
Order affirmed.

41a
APPENDIX B
SUPREME COURT, APPELLATE DIVISION,
FIRST DEPARTMENT, NEW YORK
The People of the State
of New York,
Respondent,
v.
Carlos Tapia,
Defendant-Appellant.
No. 3082, 4370/08
June 6, 2017
Richard M. Greenberg, Office of the Appellate Defender, New York (Eunice C. Lee of counsel), and Orrick, Herrington & Sutcliffe LLP, New York (Daniel
A. Rubens of counsel), for appellant.
Darcel D. Clark, District Attorney, Bronx (Jordan K.
Hummel of counsel), for respondent.
OPINION
Judgment, Supreme Court, Bronx County (Miriam Best, J.), rendered February 28, 2013, convicting
defendant, after a jury trial, of attempted assault in
the first degree, and sentencing him to a term of 5
years, with 3 years’ postrelease supervision, affirmed.

42a
Defendant contends that his conviction is legally
insufficient and was against the weight of the evidence. Legal sufficiency and weight of evidence review are two standards of intermediate appellate review. Although related, “each requires a discrete
analysis” (People v Bleakley, 69 NY2d 490, 495
[1987]). In reviewing whether a verdict is supported
by legally sufficient evidence, we must determine
whether, viewing the evidence in the light most favorable to the People, “there is a valid line of reasoning
and permissible inferences from which a rational jury
could have found the elements of the crime proved beyond a reasonable doubt” (People v Danielson, 9 NY3d
342, 349 [2007] [internal quotation marks omitted];
see also People v Gordon, 23 NY3d 643, 649 [2014];
People v Bleakley, 69 NY2d at 495). “This deferential
standard is employed because the courts’ role on legal
sufficiency review is simply to determine whether
enough evidence has been presented so that the resulting verdict was lawful” (People v Acosta, 80 NY2d
665, 672 [1993]). If that is satisfied, then the verdict
will be upheld on a legal sufficiency basis (People v
Danielson, 9 NY3d at 349; People v Acosta, 80 NY2d
at 672).
To determine whether a verdict is supported by
the weight of the evidence, however, our analysis is
not limited to that legal test. Even if all the elements
and necessary findings are supported by some credible evidence, we must examine the evidence further.
“If based on all the credible evidence a different finding would not have been unreasonable,” then we must
“weigh the relative probative force of conflicting testimony and the relative strength of conflicting inferences that may be drawn from the testimony” (People

43a
v Bleakley, 69 NY2d at 495 [internal quotation marks
omitted]). “Based on the weight of the credible evidence,” we must then decide “whether the jury was
justified in finding the defendant guilty beyond a reasonable doubt” (People v Danielson, 9 NY3d at 348).
However, in performing this analysis, we must be
“careful not to substitute [ourselves] for the jury.
Great deference is accorded to the fact-finder’s opportunity to view the witnesses, hear the testimony and
observe demeanor. Without question the differences
between what the jury does and what the appellate
court does in weighing evidence are delicately nuanced, but differences there are” (People v Bleakley,
69 NY2d at 495; see also People v Kancharla, 23 NY3d
294, 303 [2014]; People v Romero, 7 NY3d 633, 644
[2006]).
Here, defendant was charged with attempted assault in the first degree based on the use of a dangerous instrument under an acting-in-concert theory.
The victim was unequivocal that he was attacked and
beaten by two people. Several witnesses also told the
police two people attacked the victim and pointed out
defendant and a man named Torres as the two attackers. The police officers testified that they arrived on
the scene while defendant was still in the process of
beating the victim. Torres, for his part, was fidgeting
with his waistband and running toward defendant
and the victim. Both officers testified they observed
defendant body slam the victim in the street, drag
him between parked vehicles, and punch and kick
him. They lost sight of defendant and the victim for
“seconds” when they first got out of the patrol car because their vision was blocked by a van. One officer
arrested Torres while the other officer physically

44a
pulled defendant off the victim as defendant was still
kicking the victim in the head. While it is true that no
blades, razors or other sharp instruments were found
either on defendant or in the immediate area of the
fight, and no one saw defendant personally cut the
victim, the officers candidly testified that they
“wanted to close this investigation down” as they believed they had the perpetrators of the assault. They
did not recover or analyze any of the broken glass in
the area or check surveillance cameras that may have
captured images of the fight as part of their investigation.
Nevertheless, viewing the evidence in a light most
favorable to the People, the jury could have drawn a
reasonable inference that defendant and Torres were
acting in concert and one or the other caused the injuries to the victim’s neck and face by using a sharp
instrument at some point in the assault. Certainly,
Officer Bello testified he observed defendant kicking
the victim in the head while the victim was bleeding.
The medical evidence, as the dissent notes, was unequivocal that the cuts sustained by the victim were
consistent with being struck with a “sharp cutting instrument.” Coupled with the fact that the victim was
sure he was assaulted by two individuals, and the witnesses interviewed by the police at the scene identified defendant and Torres as the attackers, the jury
could certainly reasonably infer that defendant and
Torres were acting in concert, and that one or the
other used a “sharp cutting instrument” to cause the
victim’s injuries. Based on the weight of the credible
evidence, we find no basis for disturbing the jury’s de-

45a
termination in finding defendant guilty beyond a reasonable doubt (People v Danielson, 9 NY3d at 348;
People v Bleakley, 69 NY2d at 495).
The court properly denied defendant’s motion to
suppress a showup identification. The prompt,
on-the-scene showup was conducted as part of an unbroken chain of events and was justified by the interest of prompt identification (see People v Duuvon, 77
NY2d 541, 545 [1991]; People v McLean, 143 AD3d
538 [1st Dept 2016], lv denied 28 NY3d 1148 [2017]).
The circumstances of the showup, as a whole, did not
create a likelihood of misidentification (see Duuvon,
77 NY2d at 545; People v Sanabria, 266 AD2d 41, 41
[1st Dept 1999], lv denied 94 NY2d 884 [2000]).
The court also properly exercised its discretion in
admitting Officer Cosgrove’s grand jury testimony as
past recollection recorded. “The requirements for admission of a memorandum of a past recollection are
generally stated to be that the witness observed the
matter recorded, the recollection was fairly fresh
when recorded or adopted, the witness can presently
testify that the record correctly represented his
knowledge and recollection when made, and the witness lacks sufficient present recollection of the recorded information” (People v Taylor, 80 NY2d 1, 8
[1992]). Here, the People laid a proper foundation for
admission of this evidence as Cosgrove testified at
trial that he had no present recollection of this incident, that his review of his grand jury minutes did not
refresh his recollection, that his grand jury testimony
represented his knowledge and recollection when
made, and that he testified truthfully and accurately
before the grand jury (see People v Lewis, 232 AD2d

46a
239, 240 [1st Dept 1996], lv denied 89 NY2d 865
[1996]). Moreover, the admission of this evidence did
not violate the Confrontation Clause since Cosgrove
testified at trial and was subject to cross-examination
(People v Rahman, 137 AD3d 523, 523-524 [1st Dept
2016], lv denied 28 NY3d 935 [2016]; see also People v
DiTommaso, 127 AD3d 11, 15 [1st Dept 2015], lv denied 25 NY3d 1162 [2015]). In any event, there was
no prejudice to defendant because it was entirely cumulative of Officer Bello’s testimony (see People v
Holmes, 291 AD2d 247, 248 [1st Dept 2002], lv denied
98 NY2d 676 [2002]).
By raising general objections, or by failing to object or to request further relief after the court delivered a curative instruction, defendant failed to preserve his present challenges to the prosecutor’s summation, and we decline to review them in the interest
of justice. As an alternative holding, we find no basis
for reversal. Concur—Tom, J.P., Friedman and
Sweeney, JJ.
**********
Moskowitz and Kapnick, JJ., dissent in part in a
memorandum by Kapnick, J., as follows: Defendant
Carlos Tapia was charged and convicted after a jury
trial with attempted assault in the first degree based
on the use of a dangerous instrument under an acting-in-concert theory. Because the People failed to
prove a crucial required element of this count,
namely, that defendant or the other alleged attacker
used a sharp instrument to cut the victim, I would
find that the evidence was not legally sufficient to
support the judgment of conviction.

47a
I agree with the majority, that in assessing the legal sufficiency of the evidence, this Court, viewing the
evidence in the light most favorable to the People,
“must decide whether a jury could rationally have excluded innocent explanations of the evidence … and
found each element of the crime proved beyond a reasonable doubt” (People v Reed, 22 NY3d 530, 535
[2014]). Put another way, we “must determine
whether there is any valid line of reasoning and permissible inferences which could lead a rational person
to the conclusion reached by the jury on the basis of
the evidence at trial and as a matter of law satisfy the
proof and burden requirements for every element of the
crime charged” (People v Bleakley, 69 NY2d 490, 495
[1987] [citations omitted and emphasis added]). However, I disagree with the majority’s determination
that here “the jury could have drawn a reasonable inference that defendant and Torres were acting in concert and one or the other caused the injuries to the
victim’s neck and face by using a sharp instrument at
some point in the assault.”
The question before us on this appeal is whether
the evidence sufficed to show that defendant wielded
the dangerous instrument or acted in concert with another, presumably Mr. Torres, who wielded the dangerous instrument, and slashed the victim’s face. As
relevant here, a person is guilty of assault in the first
degree when “[w]ith intent to cause serious physical
injury to another person, he causes such injury to
such person or to a third person by means of a deadly
weapon or a dangerous instrument” (Penal Law
§ 120.10 [1]). “A person is guilty of an attempt to commit a crime when, with intent to commit a crime, he

48a
engages in conduct which tends to effect the commission of such crime” (Penal Law § 110.00). To establish
accessorial liability, or acting-in-concert, the People
must prove beyond a reasonable doubt that the accused shared the “mental culpability of his companion
or solicited, requested, commanded, importuned, or
intentionally aided his companion” to cut the victim
(Matter of Paris M., 218 AD2d 554, 556 [1st Dept
1995]; see also Penal Law § 20.00). Here, there was no
proof beyond a reasonable doubt that defendant cut
the victim’s face and neck or shared the intent of the
individual, whether Mr. Torres or someone else, who
did cut the victim (see People v Rivera, 176 AD2d 510,
511 [1st Dept 1991], lv denied 79 NY2d 863 [1992]).
While the victim’s face was cut several times by a
sharp object, there was no witness’s testimony or any
other direct evidence that defendant personally cut
the victim. Rather, at trial, the victim testified repeatedly that he did not see who cut him or the weapon
that was used to cut him. He further testified that he
was face down on the ground at various times, indeed
even covering his face and parts of his body while he
was being punched and kicked; and, therefore, that he
could not see who was attacking him or who cut him.
Furthermore, the victim was unable to say when, exactly, during this attack he was cut, and only realized
he had been cut when he felt blood running down his
face. The majority seeks to cast the victim’s testimony
that he “was sure he was assaulted by two individuals,” as unequivocal, however, this is incorrect. In
fact, and as already noted, the victim said he could not
see who assaulted him, and, moreover, he testified
that it “could have been … that several people had hit
[him], because that’s the way [he] felt.” Additionally,

49a
the testimony by one of the arresting officers that two
witnesses at the scene identified defendant and
Torres as the attackers does not rise to the level of
proving beyond a reasonable doubt that the two men
were acting in concert or shared the requisite “mental
culpability” for the harm done to the victim.
Moreover, and as noted by the majority, the police
did not recover any blades, razors or other sharp instruments from either defendant or the immediate
area of the fight. The police also testified that they did
not recover or analyze any of the broken glass from a
shattered beer bottle on the sidewalk in front of the
bar where the incident had occurred, or the pieces of
broken glass scattered on the ground where defendant had been kicking the victim when the police arrived. Indeed, at trial the People called a doctor who
testified regarding the injuries that the victim sustained. The doctor stated that the cuts were not consistent with someone falling onto broken glass or being struck with a fist, but rather, were consistent with
being struck with a “sharp cutting instrument,” such
as a “knife, a box cutter” or a “piece of glass if it … had
the right edge.” Additionally, the People failed to put
forth any evidence to suggest that defendant was
aware that another attacker used a sharp object to cut
the victim’s face, nor was there evidence of any connection between defendant and the other alleged attacker, Mr. Torres.
Indeed, one of the arresting officers testified that
he never even asked the victim who had cut him.
Moreover, there was testimony that there were approximately 15 to 20 people on the sidewalk exiting
the bar at the time of the incident.

50a
Therefore, in assessing the legal sufficiency of the
evidence, I would find that the evidence failed to establish beyond a reasonable doubt, directly or by inference circumstantially, that defendant carried a
dangerous instrument, cut the victim’s face with it, or
was aware that the other attacker intended to or was
cutting the victim with such an instrument (see People v Campbell, 79 AD3d 624 [1st Dept 2010], lv denied 17 NY3d 793 [2011]; Matter of Paris M., 218
AD2d at 556; People v Rivera, 176 AD2d at 510-512).
However, defendant’s own actions supported a
conviction for attempted second-degree assault, based
on the theory that, “[w]ith intent to cause serious
physical injury to another person, he cause[d] such injury to such person” (Penal Law § 120.05 [1]). Accordingly, I would reduce the conviction to attempted assault in the second degree and reduce the sentence to
time served, with 1½ years’ postrelease supervision
(see People v Campbell, 79 AD3d at 624).

